V
\

PROOF OF SERVICE
I, Ramesha L. Glover, pursuant to Rule 29.5(c) of the Supreme Court of the United
States, personally served one copy of the Petition for Writ of Habeas Corpus and one
copy of the Appendix to the Petition for Writ of Habeas Corpus to Miami-Dade
\

Corrections & Rehabilitation Department (Daniel Junior) via Federal Express, on
June 8, 2021.

Director Daniel Junior
MiamrDade Corrections and Rehabilitation
Dr. Martin Luther King Office Plaza
2525 N.W. 62nd St.
Tracking Number: 3>SOl ^201

<3 lPC©

All parties that are required to be served have been served pursuant to Rule 29.5 of
the Supreme Court of the United States.
Pursuant to 28 U. S. C. §1746, I, Ramesha L. Glover, declare under penalty of
perjury that the foregoing is true and correct.

Executed on June 8, 2021

Additional material
from this filing is
available in the
Clerk's Office.

